RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-280
George Georgiou,
Petitioner,
v.
United States,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Jeffrey T. Green, certify that
the Brief of the National Association of Criminal Defense Lawyers as Amicus
Curiae in Support of Petitioner in the foregoing case contains 3,146 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 5, 2020.
/s/ Jeffrey T. Green
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20009
(202) 736-8000

